               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Monitoring of Government Travel
     Card Transactions in the Northeast
                    Area

               Management Advisory




                                              August 30, 2013
Report Number DP-MA-13-004
                                                                        August 30, 2013

                                             Monitoring of Government Travel Card
                                               Transactions in the Northeast Area

                                                        Report Number DP-MA-13-004



BACKGROUND:
The U.S. Postal Service uses the             totaling about $1.3 million. Our objective
Government Services Administration           was to determine whether Postal
SmartPay2® Program to administer the         Service travel card coordinators in the
travel card program. Citibank is the         Northeast Area were effectively
provider of the travel card for the Postal   monitoring government travel card
Service and issues VISA® travel cards to     transactions.
Postal Service employees for use while
on official travel. Employees can use the    WHAT THE OIG FOUND:
SmartPay2 travel card for                    The Northeast Area travel card
transportation, lodging, and other travel    coordinators were effectively monitoring
related services when traveling on           government travel card transactions. We
official business. Postal Service policy     noted only minor instances of potential
states that employees may not use the        improper uses of the travel card.
government travel card for personal
business and limits cash advances to         The Northeast Area recently distributed
$50 per day of official travel.              Citibank Monthly Reconciliation
                                             Standard Operating Procedures to all
To assist with the administration of the     travel card coordinators which outline
travel card program, each Postal             their duties and responsibilities.
Service area and district office has a       Additionally, the Postal Service provided
travel card coordinator. The travel card     Citibank® Custom Reporting System
coordinators monitor travel card             training to all travel card coordinators.
transactions and identify unauthorized       This training includes new reporting
purchases and transactions that could        tools to aid the travel card coordinators
indicate misuse or unusual activity.         in monitoring cash advance and
                                             purchase transactions.
There were 4,581government travel
cardholders in the Northeast Area as of      WHAT THE OIG RECOMMENDED:
March 31, 2013, and 844 cardholders          This report does not contain any
used their travel card in the previous       recommendations.
12 months. This included 310 cash
advance transactions for about $48,000       Link to review the entire report
and 6,941 purchase transactions
August 30 2013

MEMORANDUM FOR:            RICHARD P. ULUSKI
                           VICE PRESIDENT, NORTHEAST AREA OPERATIONS



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Management Advisory – Monitoring of Government Travel
                           Card Transactions in the Northeast Area
                           (Report Number DP-MA-13-004)

This report presents the results of our review of the Monitoring of Government Travel
Card Transactions in the Northeast Area (Project Number 13RG017DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Timothy F. O’Reilly
    Corporate Audit and Response Management
Monitoring of Government Travel Card                                                                        DP-MA-13-004
 Transactions in the Northeast Area


                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Recommendation ............................................................................................................ 2

Management's Comments............................................................................................... 2

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 5
Monitoring of Government Travel Card                                                           DP-MA-13-004
 Transactions in the Northeast Area



Introduction

This report presents the results of our review of the Monitoring of Government Travel
Card Transactions in the Northeast Area (Project Number 13RG017DP000). The
objective of our review was to determine whether U.S. Postal Service travel card
coordinators in the Northeast Area were effectively monitoring government travel card
transactions. This was a self-initiated review. See Appendix A for additional information
about this review.

The Postal Service provides individual government travel cards to designated
employees for use while on official travel. Employees are responsible for all charges
and automated teller machine (ATM) withdrawals. However the use of the government
travel cards is governed by Postal Service policy.1 This includes prohibiting employees
from using the card for personal business.

The Postal Service designated 11 employees as travel card coordinators to monitor the
government travel card transactions of cardholders assigned to the Northeast Area. To
assist the coordinators in their duties, Citibank produces reports showing travel card
activity including all cash advance and purchase transactions for each cardholder, as
well as reports indicating employee delinquency status. These coordinators are
responsible for reviewing each section of the Citibank Account Activity report2 for
compliance with policies set forth in Handbook F-15. Using these reports, the
coordinators are required to monitor government travel card purchase transactions for
non-travel related activity or potential misuse, cash advances greater than $50 per
travel day, and cash advance or purchase transactions when the employee had not
traveled. The travel card coordinators also examine transactions that indicate potential
misuse by reviewing travel expense reports contained in the Postal Service eTravel3
system to determine if the transactions are related to official travel.

There were 4,581government travel cardholders in the Northeast Area as of March 31,
2013, and 844 cardholders used their travel card in the previous 12 months. This
included 310 cash advance transactions for approximately $48,000 and 6,941 purchase
transactions totaling about $1.3 million.




1
  Handbook F-15, Travel and Relocation, May 2011.
2
  Individual transaction report produced by Citibank that includes purchase, payment, and cash advance transactions.
3
  eTravel is a Web-based system that automates the expense management process. The eTravel system enables
Postal Service employees to manage their business travel expenses; create, review, and submit expense reports;
and, access policy compliance information.
                                                            1
Monitoring of Government Travel Card                                                            DP-MA-13-004
 Transactions in the Northeast Area



Conclusion

The Northeast Area travel card coordinators were effectively monitoring government
travel card transactions. There were only minor instances4 in which the coordinators did
not identify potential misuse.

The Northeast Area recently distributed the Citibank Monthly Reconciliation Standard
Operating Procedure to all travel card coordinators which outline their duties and
responsibilities. Additionally, the Postal Service provided Citibank® Custom Reporting
System (CCRS) training to all travel card coordinators.5 The CCRS includes new
reporting tools to aid the travel card coordinators in monitoring cash advance and
purchase transactions.

Recommendation

This report does not contain any findings or recommendations.

Management's Comments

Management reviewed a draft of this report and had no comments or concerns.




4
  Travel card coordinators in the Northeast Area did not identify eight employees who either took advances while not
on official travel (five instances, 1.6 percent) or exceeded the allowable cash advance amount of $50 per day
(four instances, 1.3 percent), or obtained a cash advance more than 5 days prior to travel (three instances,
1 percent). Additionally, the coordinators did not identify 10 employees who made 46 purchases (.7 percent) totaling
about $4,000 (.3 percent) for purchases unrelated to official travel. We provided management with the details of these
transactions.
5
  This includes training all travel card coordinators in 2013 on the CCRS. Also, the Northeast Area management
issued Citibank Monthly Reconciliation Standard Operating Procedure to all travel card coordinators outlining their
duties and responsibilities.
                                                              2
Monitoring of Government Travel Card                                                             DP-MA-13-004
 Transactions in the Northeast Area


                                 Appendix A: Additional Information

Background

The Postal Service uses the Government Services Administration SmartPay Program6
to administer the travel card program. Citibank is the provider of the travel card for the
Postal Service and issues VISA travel cards to Postal Service employees for use while
on official travel. The travel card also provides access to ATMs for cash advances. To
govern travel card use, the Postal Service established travel policies for employees who
travel for official business in Handbook F-15. Employees can use individually billed7
travel cards for transportation, lodging, and other travel related services when traveling
on official business for the Postal Service. Postal Service policy states that employees
may not use their official government travel card for personal business and limits cash
advances to $50 per day of official travel.

Objective, Scope, and Methodology

Our objective was to determine whether Postal Service travel card coordinators in the
Northeast Area were effectively monitoring government travel card transactions. To
accomplish this objective we performed the following activities:

   We reviewed the VISA IntelliLink8 report for high risk transactions from April 2012
    through March 2013 to identify employees who took ATM cash advances while not
    on official travel. We also reviewed the report to identify employees who withdrew
    excessive amounts of cash (over the allowable $50 per day of official travel) and
    obtained cash advances more than 5 days prior to travel.

   We reviewed the Citibank® individual transaction report from April 2012 through
    March 2013 to identify employees who used their travel card for purchases not
    related to official travel.

   We interviewed all 11 Northeast Area travel card coordinators to determine their
    knowledge of the roles and responsibilities associated with monitoring government
    travel card transactions.

   We attended the CCRS9 training in May 2013. We became aware of new reporting
    options available to aid travel card coordinators when monitoring government travel
    card transactions.



6
  Manages a set of master contracts through which agencies, including the Postal Service, can obtain credit cards for
employees to accomplish their mission.
7
  Issued card to postal employee, the card is in their name, and charges are billed directly to them for payment.
8
  A web-based information-services application that allows access to information that can improve misuse detection.
9
  The CCRS is an online tool available for capturing and managing information related to card transactions from line-
item details to consolidated data at a global level and everything in between. A user will have access to over 600 data
elements and is able to create custom reports.
                                                            3
Monitoring of Government Travel Card                                    DP-MA-13-004
 Transactions in the Northeast Area


   We reviewed the Citibank cash advance report from April 2012 through March 2013
    containing 78 employees and 310 cash advance transactions. We determined
    whether there were any employees that obtained an excessive number of cash
    advances or obtained cash advances that totaled excessive amounts. We verified
    those specific transactions in the Postal Service's eTravel system to associate them
    with each individual employee’s travel history and determined there was no misuse.

We conducted this review from May through August 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 21, 2013, and included their comments where appropriate.

We did not assess the reliability of any computer-generated data for the purposes of this
report because the data received was from government contractor sources. However, to
access the contractor data we had to use single sign-on (SSO) technology. We were
satisfied the information systems were adequately protected from unauthorized access
when applications required SSO authentication. We also compared selected
transactions to the Postal Service’s eTravel system for accuracy and found the data to
be reliable for our purposes.




                                            4
    Monitoring of Government Travel Card                                       DP-MA-13-004
     Transactions in the Northeast Area



    Prior Audit Coverage

                                                        Final           Monetary
                                                       Report            Impact
          Report Title              Report Number        Date         (in millions)
Travel Expense                       FT-AR-12-014     9/27/2012           None
Reimbursements and Travel
Card Usage
Report Results: Postal Service employees improperly claimed expenses on their
travel reimbursements and inappropriately used their travel card. Approving
managers do not have a mechanism to adequately monitor travel card activity.
Also, the Postal Service did not have clear instructions explaining how to handle
canceled airfare. As a result, the Postal Service is exposed to inappropriate or
fraudulent activity that could negatively affect its reputation. Management agreed, in
principle, with all four of our recommendations and there was no monetary impact.

Compliance With Travel                 FF-AR-11-007      2/9/2011             $1.2
Policies and Opportunities for
Cost Savings
Report Results: Postal Service employees did not comply with prescribed travel
policies resulting in excessive travel costs for lodging and airfare in fiscal years
2009 and 2010. We estimate the Postal Service could realize savings over the next
2 years if it takes action to curtail employee noncompliance with travel policies.
Further, the Postal Service did not cancel credit cards issued to former employees,
including employees listed as deceased in employee records. Management agreed
with our finding and monetary impact, but did not agree with recommendations 1
and 4. Management agreed with recommendations 2 and 3.




                                                 5
